<html>
<title> - MOTHER TERESA RELIGIOUS WORKERS ACT</title>
<body><pre>[Senate Hearing 106-995]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-995

                  MOTHER TERESA RELIGIOUS WORKERS ACT

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2000

                               __________

                          Serial No. J-106-76

                               __________

         Printed for the use of the Committee on the Judiciary


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
72-779                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York
                   Lee Liberman Otis,  Chief Counsel
                 Melody Barnes, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Abraham, Hon. Spencer, a U.S. Senator from the State of Michigan, 
  prepared statement.............................................     1

                               WITNESSES

His Eminence Adam Cardinal Maida, Archbishop of Detroit, prepared 
  statement......................................................     3
Rabbi Steven Weil, Young Israel of Oak Park, prepared statement..    11
Elder Ralph W. Hardy, Jr., Member of the Quorum of the Seventy, 
  Church of Jesus Christ of Latter-day Saints, prepared statement    14

                                APPENDIX
                          Proposed Legislation

Bill No. S. 2406.................................................    25

 
                  MOTHER TERESA RELIGIOUS WORKERS ACT

                              ----------                              


                        THURSDAY, APRIL 13, 2000

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:57 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. Let me begin with an apology to all who 
are here. We really never can tell when votes are going to be 
brought before the Senate, and on a day like this which is 
close to the beginning of a recess, the desire to compile as 
many votes into as short a time frame as possible becomes 
overriding. So we had three instead one, and consequently I 
just voted the last one and raced out. The good news is that if 
your name is Abraham, you get to vote first, and so in that 
sense I am here quicker than maybe others would have been.
    In light of the delay, I think I will dispense with making 
my opening statement at this time, except to say that obviously 
we are here today to consider a very important piece of 
legislation, the Mother Teresa Religious Workers Act, a bill 
that I have introduced and have great hopes we can pass in this 
Congress to make permanent our religious worker visa programs.
    [The prepared statement of Senator Abraham follows:]

             Prepared Statement of Senator Spencer Abraham

    We are here today to address the ``Mother Teresa Religious Workers 
Act.'' This legislation will make permanent provisions of the 
Immigration and Nationality Act that set aside 10,000 visas per year 
for ``special immigrants.''
    Up to 5,000 of these visas annually can be used for ministers of a 
religious denomination. In addition, a related provision of the law 
provides 5,000 visas per year to individuals working for religious 
organizations in ``a religious vocation or occupation'' or in a 
``professional capacity in a religious vocation or occupation.'' This 
has allowed nuns, brothers, cantors, lay preachers, religious 
instructors, religious counselors, missionaries, and other persons to 
work at their vocations or occupations for religious organizations of 
their affiliates.
    The key component of the law will expire on September 30 of this 
year unless Congress acts, and that is the focus of this hearing.
    Under the law, a sponsoring organization must be a bona fide 
religious organization or an affiliate of one, and must be certified or 
eligible to be certified under Section 501(c)(3) of the Internal 
Revenue Code. Religious workers must have two years work experience to 
qualify for an immigrant visa.
    Prior to 1990, churches, synagogues, mosques, and their affiliated 
organizations experienced significant difficulties in trying to gain 
admission for a much needed minister or other individual necessary to 
provide religious services to their communities. However, this 
improvement in the law in 1990 was not made permanent and, as such, has 
required reauthorization every two or three years, which has created 
uncertainly among religious organizations.
    Bishop John Cummins of Oakland has written: ``Religious workers 
provide a very important pastoral function to the American communities 
in which they work and live, performing activities in furtherance of a 
vocation or religious occupation often possessing characteristics 
unique from those found in the general labor market. Historically, 
religious workers have staffed hospitals, orphanages, senior care homes 
and other charitable institutions that provide benefits to society 
without public funding.''
    Bishop Cummins notes that ``The steady decline in native-born 
Americans entering religious vocations and occupations, coupled with 
the dramatically increasing need for charitable services in 
impoverished communities makes the extension of this special immigrant 
provision a necessity for numerous religious denominations in the 
United States.''
    The sentiments expressed by Bishop Cummins are widely held. Indeed 
this program has won universal praise in religious communities across 
the nation. In the past, our office has received letters from religious 
orders and organizations throughout the nation.
    As a nation founded by people who came to these shores so they and 
their children could worship freely, it is only appropriate that our 
country welcome those who wish to help our religious organizations 
provide pastoral and other relief to people around this nation.
    That is why I have introduced ``The Mother Teresa Religious Workers 
Act.'' The bill will eliminate the sunset provisions in current law and 
extend permanently the religious workers provisions of the Immigration 
and Nationality Act. It is clear that religious organizations' ability 
to sponsor individuals who provide service to their local communities 
should be a permanent fixture of our immigration law, just as it is for 
those petitioning for close family members and skilled workers. No 
longer should religious institutions have to worry about whether 
Congress will act in time to renew the religious workers provisions. I 
am pleased Senators Kennedy, DeWine, and Leahy are cosponsoring this 
legislation.
    Finally, I would like to close by reading a passage from a letter 
sent to me in 1997. It's a letter that at the time helped convince me 
of the need to move toward permanent extension of the religious workers 
provisions of the Immigration and Nationality Act. The letter read as 
follows:

    ``Dear Senator Abraham: I am writing to ask you to help us in 
solving a very urgent problem. My Sisters in New York have told me that 
the law which allows the Sisters to apply for permanent residence in 
the United States expires on September 30, 1997. Please, will you do 
all that you can to have that law extended so that all Religious will 
continue to have the opportunity to be permanent residents and serve 
the people of your great country.
    ``It means so much to our poor people to have Sisters who 
understand them and their culture. It takes a long time for a Sister to 
understand the people and a culture, so now our Society wants to keep 
our Sisters in their mission countries on a more long term basis. 
Please help us and our poor by extending this law.
    ``I am praying for you and the people of Michigan. My Sisters serve 
the poor in Detroit where we have a soup kitchen and night shelter for 
women. Let us all thank God for this chance to serve His poor.
    ``Signed: Mother Teresa.''

    My office received this letter only a few weeks before her death. 
In honor of her great deeds for humanity I hope that this year we can 
finally extend the religious workers provisions of the INA permanently. 
I think this hearing is an important step in that process and I look 
forward to the testimony of the distinguished witnesses we have 
assembled here today.

    Senator Abraham. What I would like to do is move 
immediately to the witnesses and let them make their opening 
statements. I will have just a few questions for the panel, 
unless we are joined by other members. Given the delays, I 
suspect my colleagues, like myself, have found themselves 
behind in different commitments and so may not be able to be 
here.
    We have a very special group of witnesses testifying here 
today. First, we will hear from His Eminence Adam Cardinal 
Maida, who is our Archbishop of Detroit. His Eminence and I 
have worked together on this issue in the past, and I look 
forward to hearing his comments and continuing to work with him 
in the future.
    We will next hear from Rabbi Steven Weil, who is the rabbi 
at Young Israel of Oak Park, in Oak Park, Michigan.
    Finally, we will hear from Elder Ralph Hardy, Jr., who is a 
Member of the Quorum of the Seventy, with the Church of Jesus 
Christ of Latter-day Saints.
    I welcome you all and, as I said, we will move right into 
the testimony, so we will turn first to you, Cardinal. Welcome, 
and thank you for being here today and for helping us on this 
legislation.

     PANEL CONSISTING OF HIS EMINENCE ADAM CARDINAL MAIDA, 
 ARCHBISHOP OF DETROIT, DETROIT, MI; RABBI STEVEN WEIL, YOUNG 
  ISRAEL OF OAK PARK, OAK PARK, MI; AND ELDER RALPH W. HARDY, 
   JR., MEMBER OF THE QUORUM OF THE SEVENTY, CHURCH OF JESUS 
          CHRIST OF LATTER-DAY SAINTS, WASHINGTON, DC

         STATEMENT OF HIS EMINENCE ADAM CARDINAL MAIDA

    Cardinal Maida. Good afternoon, Senator Abraham. It is good 
to be here.
    Senator Kennedy and members of the subcommittee, I am Adam 
Cardinal Maida, Archbishop of Detroit. It is a pleasure to 
appear before the subcommittee again. The last time I was here 
was in September of 1997, and I was accompanied by Franciszek 
Cardinal Macharski, the Archbishop of Krakow, who succeeded our 
Holy Father there. Also present with me were Cardinal Castillo 
Lara, who was President of the Pontifical Commission for 
Vatican City State. Not only did I have the opportunity to 
address with you concerns of the church, but I had the 
opportunity to observe our congressional process at work. And 
so I thank you for that opportunity and for this opportunity 
today.
    Before we get started, Mr. Chairman, I would like to take a 
moment to extend the thanks of the U.S. Catholic Bishops for 
your tireless work on behalf of immigrants. I know, Mr. 
Chairman, that your work on behalf of immigrants and refugees 
have come under attack in our home State of Michigan, and I 
would like at this time to express my admiration for your 
courageous leadership on behalf of immigrants and refugees here 
in Congress, and extend my appreciation for your efforts in 
educating those in our State and around the country about the 
positive contributions immigrants make to our communities.
    I must also thank Senator Kennedy, who has previously 
served as chairman of the subcommittee and has long been a 
champion of these issues. Senator Kennedy, your efforts over 
the years, especially in the last decade, have brought much in 
the way of reason, balance, and temperance to the national 
debate on immigration.
    As you know, I am here to speak with you about the need for 
a permanent extension of the special immigrant NonMinister 
Religious Worker Visa Program. I am here to present my views as 
the Cardinal Archbishop of Detroit, as well as the views of the 
Catholic Bishops of the United States.
    The program is very important. It is an important one not 
only for the religious denominations and organizations who make 
use of it, but also for the individuals and the communities we 
serve because of it. It allows the Catholic Church to bring in 
as permanent residents foreign religious sisters, brothers, and 
laypersons, all of whom perform vital tasks to assist the 
church in her mission in the United States.
    Should the program be permitted to expire at the end of 
this fiscal year, religious organizations and denominations 
will access to the much needed contributions of these religious 
workers, as will the many communities in which they serve.
    Prior to enactment of the Immigration Act of 1990 which 
created new visa categories for religious workers, religious 
organizations in the United States seeking the assistance of 
foreign-born religious workers were frequently forced to use 
immigrant categories that were more appropriately designed for 
the needs of businesses and other employers. Utilization of 
complex immigration categories created confusion and imposed 
serious obstacles. In many cases, the immigrant visa categories 
were over-subscribed and backlogged.
    Consequently, the Catholic Church, as well as other 
denominations, found that we could not bring in workers within 
a timeframe that corresponded to the actual need for their 
services. It would be a disservice to our parishes, our civic 
communities, and most importantly to those in need of the 
services that these workers provide if this category is not 
extended permanently.
    We are particularly pleased, Mr. Chairman, that you, 
Senator Kennedy, Senator DeWine and Senator Leahy just 
yesterday introduced legislation which would permanently extend 
this program. We thank you for your sponsorship of this 
legislation. We believe that a permanent extension would 
provide the stability religious organizations require to plan 
for their personal needs and prevent the disruption and 
uncertainty that impending terminations of this program has 
caused in this and previous years.
    Additionally, because of the current trend toward a lower 
number of vocations to religious life in this country, the 
program also provides security for religious organizations who 
still must respond to the increasing pastoral needs of the 
growing and diverse ethnic communities that they serve.
    Because of these and other reasons, I ask that you pass a 
permanent extension of the nonminister special immigrant 
categories of the religious worker program. I also urge to 
reject the imposition of any new, unnecessarily harsh criteria 
for applicants for these visas. We are aware that in the past 
some have raised the question of whether a few individuals have 
fraudulently attempted to use the religious worker visa 
category.
    I am not aware of any widespread attempts to use these 
visas fraudulently. Our communities and organizations comply 
with application requirements and produce 
extensivedocumentation to satisfy each element of the statute and 
regulations to ensure that applicants qualify for their visas in 
compliance with the law.
    Mr. Chairman, it is critical in understanding our need for 
this program to recognize that the U.S. Catholic Church is 
uniquely an immigrant church. Our dioceses frequently need the 
assistance of noncitizen religious workers to minister to the 
immigrant people. We estimate that more than half of the U.S. 
Roman Catholic dioceses benefit from the needed skills of 
foreign-born workers.
    Noncitizen religious workers assist newcomers meet the 
challenges of making the transition to their newly chosen 
homeland, and possess the language, the cultural perspective 
and the understanding to assist not only the newcomer, but the 
diocese as a whole. Strong examples of this are our Asian and 
Hispanic communities, once emerging, but now significant and 
well-established communities.
    According to a recent study commissioned by the Bishops' 
Committee on Hispanic Affairs, 30 to 38 percent of Catholics in 
the United States are Hispanic. Fully 71 percent of the 
Catholic population growth in our country since 1960 is 
attributable to Hispanics.
    Let me describe briefly for your their work in real terms. 
Information from dioceses across the country indicate that 
workers under this program are engaged in ministry in parishes, 
in healthcare, in prisons, in teaching, in nursing care, and in 
counseling. Their contributions range from human services to 
the most needy, to work with young adolescents, to religious 
instruction.
    Foreign-born nonminister religious workers are integral to 
the diverse work carried on by the church in our country. These 
are not individuals who work in high-visibility positions. 
Rather, they perform perhaps the most difficult and important 
task of mending the spirit of those in need in our communities.
    As you know, Mr. Chairman, in our home State our religious 
communities are very active. You may be familiar with the 
Consolata Missionary Sisters in Belmont, the Dominican Sisters 
in Lansing, and the Pine Missionaries of Detroit. With the help 
of foreign-born religious workers, they provide a range of 
services to Catholics and others in Michigan.
    Recently, we have assisted the Sisters of Mercy to bring in 
sisters to perform ministry, as well as another congregation to 
bring in eight Nigerian sisters to minister to the poor in the 
western part of our archdiocese. Our religious organizations in 
Michigan use this special category as well. The archdiocese 
works with other denominations in helping them obtain visas 
under this category. Most recently, several Methodist 
congregations needed assistance with an Hispanic ministry, a 
Unitarian congregation needed the skills of a foreign-born 
missionary, and a local mosque requested assistance to obtain a 
visa.
    The last time I spoke with the committee, Mother Teresa of 
Calcutta had recently passed away, and we discussed her July 
1997 letter to you, Mr. Chairman, regarding the need for these 
visas. As you know, the Missionaries of Charity make an 
important contribution in my archdiocese, and also perform 
important work through their houses located in other parts of 
the country. They operate homes for the homeless, those who 
suffer from AIDS, and expectant mothers in crisis across the 
Nation, primarily because of the work done by their sisters 
from other countries and their ability to be sensitive to the 
cultural needs of those they serve.
    With your permission, Mr. Chairman, I would like to submit 
into the hearing record the letter sent to you from Mother 
Teresa in July of 1997 in support of this important program. I 
would also like your permission to submit in the record a 
letter from Sister Dominga, the Regional Superior of the 
Missionary Sisters of Charity in New York, supporting a 
permanent extension of the special immigrant categories this 
year.
    Mr. Chairman, the work which foreign-born religious workers 
perform in our country serves all American citizens. It 
provides assistance I need in my archdiocese and the 
contributions we need in our civic communities. This important 
work which often goes unnoticed should be embraced on behalf of 
the common good.
    In closing, let me just reiterate that the permanent 
extension of the non-minister special immigrant program is 
greatly needed. Failure to extend this program would 
substantially undermine the services that the Catholic Church 
in the United States provides to our parishioners and 
communities throughout the Nation. The dramatically increasing 
need for charitable services in impoverished communities also 
makes the extension of this special immigrant visa provision 
timely and appropriate.
    Thank you for your consideration of our views.
    [The prepared statement of Cardinal Maida follows:]

         Prepared Statement of His Eminence Adam Cardinal Maida

    Good morning Mr. Chairman, Senator Kennedy, and Members of the 
Subcommittee. I am Adam Cardinal Maida, Archbishop of Detroit.
    It is a pleasure to appear before the Subcommittee again. That last 
time I was here was in September of 1997, and I was accompanied by 
Franciszek Cardinal Macharski, the Archbishop of Krakow, who succeeded 
Our Holy Father, and President of the Pontifical Commission for the 
Vatican City State. Not only did I have the opportunity to address with 
you concerns of the Church, but they had the opportunity to observe our 
Congressional process at work. So, I thank you for that opportunity and 
this one today.
    Before we get started, Mr. Chairman, I would like to take a moment 
to extend the thanks of the U.S. Catholic Bishops for your tireless 
efforts on behalf of immigrants. Your courageous leadership during the 
104th, 105th and in the current 106th Congress has been instrumental in 
upholding the rights and protection of legal immigrants, refugees, 
asylees and those striving to become citizens. Your efforts have 
resulted in preserving family unity, which is the underpinning of 
American society and the traditional cornerstone of U.S. immigration 
policy. You have supported extending meaningful protection to those 
fleeing persecution and have been instrumental in ensuring that the 
United States of America continues to be a leader in protecting those 
struggling for freedom. You have also supported fair access to 
naturalization for those who wish to embrace their adopted homeland 
through the privilege of U.S. citizenship. These efforts are greatly 
appreciated by the Catholic Church in the United States and we look 
forward to your continued efforts and leadership in this area. I must 
also thank Senator Kennedy, who has previously served as chairman of 
the Subcommittee and has long been a champion of these issues. Senator 
Kennedy, your efforts over the years, especially in this last decade, 
have brought much in the way of reason, balance and temperance to 
issues which have been used as lighting rods to feed fears and 
misconceptions about immigrants and refugees which have resulted in 
divisiveness in our communities.
    As you know, I am here today to speak with you about the need for a 
permanent extension of the Special Immigrant ``Nonminister'' Religious 
Worker Visa Program. I am here to present my own views as the Cardinal 
Archbishop of Detroit as well as the views of the United States 
Catholic Conference representing the Catholic Bishops in the United 
States. Let me say at the outset that we thank you in advance for what 
we anticipate will be a permanent extension of the Program before it 
expires in September of this year.
    The Special Immigrant ``Nonminister'' Religious Worker Visa program 
is very important--not only for the religious denominations and 
organizations who make use of it, but also for the individuals and 
communities we serve because of it. Should the program be permitted to 
expire at the end of this fiscal year, religious organizations and 
denominations will lose access to the much needed contributions of 
these religious workers, as would the many communities in which they 
work.
    As members of the Subcommittee are aware, Congress recognized the 
special needs of religious denominations and their organizations in the 
United States when it created certain new visa categories under the 
Immigration Act of 1990. These new categories permit, not only 
religious workers, but ``non-minister'' religious workers, such as 
religious brothers, religious sisters, catechists, cantors, pastoral 
service workers, and others to enter the United States to work for a 
religious organization at their request. These classes of religious 
workers must have two years experience in their religious vocation or 
occupation before applying to carry on their vocation or to engage in a 
religious occupation as a professional or other special immigrant 
worker. Those religious workers who are given special immigrant status 
share the available visas for the category with other individuals also 
identified as special immigrants. There are only a total of 10,000 
visas that are available for special immigrants. Moreover, of this 
number no more than 5,000 visas can be issued to the categories which 
are set to expire.
    Prior to enactment of the Immigration Act of 1990, religious 
organizations in the United States seeking the assistance of foreign 
born religious workers were frequently forced to use immigrant 
categories that were more appropriately designed for the needs of 
businesses and other employers. Religious organizations who needed the 
temporary services of religious workers from abroad were forced to 
navigate the complexities of the nonimmigrant business, student, and 
missionary visa categories.
    Utilization of complex immigration categories created confusion and 
imposed serious obstacles. In many cases, the immigrant visa categories 
were oversubscribed, such as the old sixth preference category that was 
used by many religious sisters. Consequently, the Catholic Church, as 
well as other denominations, found that we could not bring in workers 
within a time frame that corresponded to the actual need for their 
services. In some instances, we could not bring them at all. It would 
be truly unfortunate if we found ourselves returned to that situation. 
It would be a disservice to our parishes, our civic communities, and 
most importantly, to those in need of the services that these workers 
provide if this category is not extended permanently.
    We are particularly pleased, Mr. Chairman, that the subcommittee is 
considering making permanent the categories about to expire. We believe 
that a permanent extension would provide the stability religious 
organizations require to plan for their personnel needs and prevent the 
disruptions and uncertainty that impending terminations of this program 
have caused in this and previous years. As an example, the three-year 
deadline creates a backlog in the program every three years just prior 
to the expiration date because religious organizations file a large 
number of applications fearing the program will expire and their 
personnel needs will not be met for that year.
    Additionally, the need to reauthorize the program every three years 
raises the specter that the program will not be renewed at all. Some 
religious workers, especially religious sisters, effectively would be 
precluded from obtaining permanent residence because they would fall 
under the category of ``other workers,'' which presently has a backlog 
dating to June 1994. The oversubscribed ``other workers'' category 
presents obstacles to the timely processing of applications, as I 
mentioned earlier.
    Finally, because of the current trend toward a lower number of 
vocations to religious life in this country, the program also provides 
security for religious organizations who still must respond to the 
increasing pastoral needs of a growing and diverse community they 
serve.
    As you consider legislations to extend this important program, I 
also urge Congress to reject the imposition of any new, unnecessarily 
harsh criteria for applicants for these visas. We are aware that in the 
past some have raised the question of whether a few individuals have 
fraudulently attempted to use the religious worker visas category. I am 
not aware of any widespread attempts to use these visas fraudulently. 
Our communities and organizations comply with application requirements 
and produce extensive documentation to support each element of the 
statute and regulations to ensure that applicants qualify for their 
visas in compliance with the law.
    As mentioned earlier, there now exists a limit of 5,000 on the 
number of visas that can be issued in any one year. We believe that if 
there is some fraudulent use of the visa categories, the small number 
of such visas should make it possible for those who are charged with 
investigating visa applications do so with an eye toward ensuring that 
they are being properly issued. We welcome whatever scrutiny is brought 
to bear on each of our applications. But we oppose imposition of any 
new, unnecessarily harsh criteria for applicants for these visas. To do 
so would undoubtedly have the unintended effect of making it next to 
impossible for U.S.-based religious organizations and denominations 
here to fill critical positions for which American-born counterparts 
are unavailable or unqualified.
    Earlier I spoke of the pastoral work performed by these individuals 
in our civic communities and their significance to the Catholic Church 
in the United States. It is critical in understanding our need for this 
program to recognize that the U.S. Catholic Church is uniquely an 
immigrant church. Our dioceses frequently need the assistance of 
noncitizen religious workers to minister to the immigrant population. 
Noncitizen workers assist newcomers meet the challenges of making the 
transition to their newly chosen homeland. These workers possess the 
language, the culture perspective and the understanding to assist not 
only the newcomer but the diocese as a whole. Strong examples of this 
are our Asian and Hispanic communities, once emerging communities which 
are now significant and well-established communities. According to a 
recent study commissioned by the Bishops Committee on Hispanic Affairs, 
30%-38% of Catholics in the United States are Hispanic. Fully, 71% of 
the Catholic population growth in our country since 1960 is 
attributable to Hispanics.
    The work of the Catholic Church in the United States would suffer 
dramatically without the assistance of non-minister religious workers. 
We estimate that more than half of the U.S. Roman Catholic dioceses 
benefit from the needed skills of foreign born workers. Information 
form dioceses across the country indicate they are engaged in ministry 
in parishes, in health care, in prisons, in teaching, in nursing care, 
and in counseling. Foreign born non-minister religious workers are 
integral to the diverse work carried on by the Church in our country.
    Some of the work which is done in our dioceses, parishes and civic 
communities by noncitizen religious workers include the following:
          <bullet> Pastoral ministry to members of the Catholic Church.
          <bullet> Human services to the most needy, including shelter 
        and food.
          <bullet> Care for and ministering to the sick, aged, and 
        dying in hospitals and special facilities.
          <bullet> Work with adolescents and young adults to confront 
        complicated social issues during a time when they desperately 
        wish to be accepted by their peers.
          <bullet> Assistance to religious leaders as they lead their 
        congregations and communities in worship.
          <bullet> Support to families, particularly in times of 
        crisis, to preserve the family unit.
          <bullet> Providing religious instruction to new members of 
        the religious denomination.
          <bullet> Assisting refugees and immigrants with their 
        transition to their newly adopted homeland.
    These are not individuals who would work in high visibility 
positions. However, they perform perhaps the most difficult and 
important task of mending the spirit of those in need in our 
communities.
    Let me describe briefly for you their work in real terms. As you 
know, Mr. Chairman, in our home state our religious communities are 
very active. You may be familiar with the Consolata Missionary Sisters 
in Belmont, the Dominican Sisters in Adrian and the Benedictines in St. 
Joseph. An example which you might be more familiar with are the 
Antonine Sisters, a religious congregation which belong to the Eparchy 
of Our Lady of Lebanon of Los Angeles. The sisters have only one 
community in the United States located in Youngstown, Ohio. Let me 
share a few sentences with you from a letter from the Superior of the 
Community describing their work: ``Our ministry in the United States is 
to take care on a daily basis of frail elderly and disabled adults at 
our Antonine Sisters' Adult Day Care. . . . Most of our elderly have 
poor income and some of them live by themselves without any family 
member close by to take care of them. Coming to our day care gives them 
a strong incentive to live in hope and joy. Services range from 
ambulatory assistance to body mechanics, transfers, wheelchair 
management, feeding devices,assisting incontinent participants, 
observing them for symptoms, and mostly also providing the above 
services with love, compassion, and in a Christ-like spirit.''
    The last time I spoke with the Committee, the late Mother Teresa of 
Calcutta had recently passed away and I relayed a letter from her to 
you, Mr. Chairman, regarding the need for these visas. As you know, the 
Missionaries of Charity make an important contribution in my 
Archdiocese and also perform important work through their houses 
located in other areas of the country.
    In a recent communication, a Missionary Brother of Charity in Los 
Angeles, California, spoke of the benefit foreign born religious 
workers provide to the fulfillment of their mission. He spoke of the 
assistance they provide ministering in the streets to the Hispanic 
community, visiting the sick and terminally ill in their homes, and 
assisting the broader community. He also mentioned the benefit of one 
religious brother from Columbia who worked with them at their day 
center for homeless youth and women, where he provided individuals a 
place to rest, fresh clothes to wear, a bathroom and showers to care 
for themselves, and a full meal. As the Superior described: ``Our 
charism is to work with the poorest of the poor, people who are often 
neglected in society. Most of our work is simple, such as feeding the 
hungry, providing clothes, and taking the time to talk with someone. We 
continue the work and spirit of Mother Teresa.''
    This is the work that I see around the nation, the assistance I 
need in my Archdiocese, and the contributions we need in our civic 
communities. This important work, which often goes unnoticed, should 
not be casually discarded or restricted but should be encouraged on 
behalf of the common good.
    In closing let me just reiterate that the permanent extension of 
the nonminister special immigrant program is greatly needed. Failure to 
extend this program would substantially undermine the services that the 
Catholic Church in the United States provides to our parishioners and 
communities throughout the nation. Dramatically increasing need for 
charitable services in impoverished communities also makes the 
extension of this special immigrant visa provision timely and 
appropriate.
    I thank you for your close attention to our views and your swift 
action in this matter.
                                 ______
                                 

                    Biography of Cardinal Adam Maida

    Adam Joseph Maida was born on March 18, 1930, in East Vandergrift, 
Pennsylvania. He was the first of three sons born to Adam Maida and 
Sophie Cieslak Maida.
    Cardinal Maida's father, now deceased, came to the United States 
from a rural area near Warsaw, Poland. His mother was born in the 
United States and presently resides in Scott Township, Pennsylvania.
    One brother, Thaddeus, is a priest of the Diocese of Pittsburgh and 
the pastor of St. Teresa of Avila Parish in Perrysville. His other 
brother, Daniel, lives in Scott Township and is married to the former 
Patricia Hurley. Daniel is in private business and he and Patricia have 
three sons, Timothy, Joseph and Robert.
    Cardinal Maida attended East Vandergrift Public Schools; 
Vandergrift Public High School for one year, and Scott Township High 
School for one year. He then completed high school and graduated from 
St. Mary's High School, Orchard Lake, Michigan, in 1948.
    Following graduation from St. Mary's, Cardinal Maida entered St. 
Mary's College, Orchard Lake. In 1950, he transferred to St. Vincent's 
College, Latrobe, Pennsylvania, where he graduated in 1952 with a 
Bachelor of Arts in Philosophy.
    In 1956, Cardinal Maida graduated with a Licentiafe in sacred 
Theology (S.T.L.) from St. Mary's University, Baltimore, Maryland.
    In 1960, Cardinal Maida received a Licentiate in Canon Law (J.C.L.) 
from the Pontifical Lateran University in Rome. In 1964, he was awarded 
a Doctorate in Civil Law (J.D.) from Duquesne Law School in Pittsburgh.
    Cardinal Maida was admitted to practice law before the Bar for the 
State of Pennsylvania, the Federal Bar in Western Pennsylvania, and the 
United States Supreme Court.
    On May 26, 1956, Cardinal Maida was ordained a priest in St. Paul 
Cathedral, Pittsburgh, by then Bishop John Dearden (deceased Cardinal 
Archbishop of Detroit).
    Following his ordination, Cardinal Maida served in the Diocese of 
Pittsburgh as an associate pastor, Vice Chancellor and General Counsel 
of the Diocese, in the Diocesan Tribunal, and as Assistant Professor of 
Theology at La Roche College, and Adjunct Professor of Law at Duquesne 
University Law School.
    On January 25, 1984, he was ordained and installed as the ninth 
Bishop of the Diocese of Green Bay, Wisconsin.
    On May 7, 1990, Pope John Paul II named Bishop Maida Archbishop of 
Detroit. He was installed as Archbishop of Detroit on June 12, 1990.
    On October 30, 1994, Pope John Paul II named Archbishop Maida a 
Cardinal. He was elevated to the College of Cardinals at a Consistory 
held on November 26, 1994, at the Paul VI Auditorium in the Vatican.
    In May of 1996, Pope John Paul II appointed Cardinal Maida as Papal 
Legate (the Pope's personal representative) to the 19th International 
Marian Congress, which was held in Czestochowa, Poland, from August 24 
to 26, 1996.

                          CURRENT APPOINTMENTS

Roman Curia
    Member, Congregation for Catholic Education; Member, Congregation 
for the Clergy; and Pontifical Council for the Pastoral Care of 
Migrants and Itinerant Peoples.
National Conference of Catholic Bishops (NCCB)
    Chairman, Ad Hoc Committee for Aid to the Church in Central and 
Eastern Europe; Member, Committee on the Diaconate; Member, 
International Policy Committee; Member, Committee on Migration; Member, 
Committee on Pro-Life Activities; Member, Ad Hoc Committee--Ex Corde 
Ecclesiac; and Episcopal Liaison, Committee for the Polish Apostolate.
Catholic University of America
    Member, Board of Trustees.
Basilica of the National Shrine of the Immaculate Conception, 
        Washington, DC
    Member, Board of Trustees.
Pope John XXIII Medical-Moral Research and Education Center, Braintree, 
        Massachusetts
    Member, Board of Directors.
Michigan Catholic Conference (MCC)
    Chairman, Board of Trustees.
Pope John Paul II Cultural Foundation Rome
    Member.
Pope John Paul II Cultural Foundation United States
    Episcopal Moderator and President.

                              PUBLICATIONS

    The Tribunal Reporter--A Casebook and Commentary on the Grounds for 
Annulment in the Catholic Church, Vol. I (1970) Editor.
    Ownership, Control and Sponsorship of Catholic Institutions (1975) 
Author.
    Issues in the Labor-Management Dialogue: Church Perspectives (1982) 
Editor.
    Church Property, Church Finances and Church-Related Corporations, A 
Canon Law Handbook (1983) Author.

                               LANGUAGES

    Polish, Latin, Italian.

    Senator Abraham. Cardinal Maida, thank you, and we will 
enter both letters into the record of the proceedings here. We 
appreciate you being here.
    [The letters referred to follow:]

                                   Missionaries of Charity,
                                         Bronx, NY, April 12, 2000.
    Dear Chairman Abraham: I write to ask your assistance on an issue 
of importance to the Missionaries of Charity.
    The Immigration Act of 1990, the Religious Worker Visa program, 
which allows U.S.-based religious organizations to bring in foreign 
workers to assist them in providing pastoral care to their membership, 
was enacted. The special immigrant visa category of the Religious 
Worker program, which permits properly sponsored nonminister religious 
workers from abroad to enter the United States and eventually qualify 
for permanent residency visas, is set to expire on October 1 of this 
year. I ask for your support for a permanent extension of the special 
immigrant religious worker visa category under the Religious Worker 
Visa program.
    As you may know, Mother Teresa, our Foundress, opened over thirty 
(30) houses in America where we give wholehearted and free service to 
the poorest of the poor. We operate Homes for the Homeless, People with 
Aids, and Expectant Mothers. These homes are run by our sisters, most 
of whom are not American citizens. The Missionaries of Charity have 
utilized the special immigrant visa category to enable us to do this 
work, and over one hundred (100) of our sisters have received permanent 
residency.
    As you know, the nonminister special immigrant category of the 
Religious Worker visa program has been reauthorized three times in 
three-year increments. As chairman of the Senate Subcommittee on 
Immigration, your support of a permanent extension of the nonminister 
special immigrant category of the Religious Worker visa program would 
be appreciated.
    God bless you and thank you for your consideration in this matter.
            Sincerely in Jesus,
                                     Sister M. Dominga, MC,
                                                 Regional Superior.
                                 ______
                                 
                                   Missionaries of Charity,
                                    Calcutta, India, July 20, 1997.
Hon. Spencer Abraham,
U.S. Senate,
Washington, DC.
    Dear Senator Abraham: This brings you my prayers, greetings and 
gratitude for all that you have done to help my Sisters and all 
Religious serve the poor in the United States.
    I am writing to ask you to help us in solving a very urgent 
problem. My Sisters in New York have told me that the law which allows 
the Sisters to apply for permanent residence in the United States 
expires on September 30, 1997. Please, will you do all that you can to 
have that law extended so that all Religious will continue to have the 
opportunity to be permanent residents and serve the people of your 
great country.
    It means so much to our poor people to have Sisters who understand 
them and their culture. It takes a long time for a Sister to understand 
the people and a culture, so now our Society wants to keep our Sisters 
in their mission countries on a more long term basis. Please help us 
and our poor by extending this law.
    I am praying for you and the people of Michigan. My Sisters serve 
the poor in Detroit where we have a soup kitchen and night shelter for 
women. Let us all thank God for this chance to serve His poor.
            God bless you,
                                                 Mother Teresa, MC.

    Senator Abraham. Rabbi Weil, nice to see you. Thank you for 
coming down, and we will turn to you at this time.

                 STATEMENT OF RABBI STEVEN WEIL

    Rabbi Weil. Mr. Chairman, Honored Senators, thank you for 
the honor and privilege of appearing before the members of this 
subcommittee today.
    Mr. Chairman, I have been a resident of the State of 
Michigan for the past 6 years. In that time, my sense of pride 
and gratitude for the strong leadership and keen vision you 
have provided our local communities has become increasingly 
profound.
    Additionally, I would like to take the opportunity to 
commend you and the other members of this subcommittee for the 
strides you have taken to preserve this country's legal 
immigration system. Your hard work in the area of immigration, 
refugees, asylum, and naturalization is marked by courage, 
sensitivity, common sense, and most importantly with respect 
and dignity for all people who arrive at the shores of this 
country.
    My name is Steven Weil. I serve as a congregational and 
communal rabbi in metropolitan Detroit. I am a member of the 
Executive Committee of Detroit's Council of Orthodox Rabbis, 
and I am also a member of the Rabbinical Council of America and 
the Orthodox Union. The two latter groups are umbrella 
organizations that provide support and services for the 
professional and lay leadership of the American Jewish 
community.
    More important than each of those positions, however, is my 
distinction as a first-generation American. I am the son of a 
German Jewish immigrant. Unlike most of my paternal relatives 
who were herded into cattle cars and sent to their tragic 
deaths in the concentration camps at Auschwitz and Belzec, my 
father and grandparents were fortunate enough to find refuge in 
the United States. They, along with many other refugees, were 
given the gift of life and the opportunity to rebuild their 
lives.
    However, the Jewish community in America at that time was 
unable to provide for the staggering financial, social, 
psychological and educational needs of the refugees arriving 
from Europe at that time. Despite it all, and armed with 
nothing but their foresight, faith and work ethic, my 
grandparents managed to build a business and a new family. 
Every day, I stand in awe of their accomplishments and am 
humbled by the realization that they were an exception to the 
rule.
    Most people arriving to this country will require some form 
of communal assistance throughout various points in their 
lives. With that in mind, religious organizations that care for 
the needs of their members wish to provide a religious 
infrastructure that can offer those people arriving everyday 
the assistance they so desperately need. Many of them arrive 
from countries that view religion differently from our own. We 
are fortunate to raise our families in an environment where 
religious freedom is not merely an ideal but a constitutional 
right. It is in such an environment that the greatest 
assistance can be provided.
    Allow me to tell you about the men and women who are 
affected by the Mother Teresa Religious Workers Act. They are a 
group of talented, well-trained and dedicated individuals who 
leave their homelands and their families with the intent to 
develop our local communities. They are men and women, rabbis, 
teachers, social workers and youth leaders who are intimately 
involved with the needs of our various neighborhoods.
    They spend their days in schools, in synagogues, hospitals 
and homes for the aged. They not only teach and inspire us to 
become better people, but they also guide those who are 
confused onto the proper path. They are by our side in times of 
need and sorrow, offering both practical and emotional support. 
They serve the community en masse, while at the same time never 
losing sight of individual members of society. It is through 
their efforts that our local communities are strengthened, 
enabling its citizens to contribute even more to the greater 
society in which we live.
    In Southfield, MI, a suburb of Detroit, lives a group of 
young and dynamic Israeli couples. They have moved into the 
neighborhood and are employed in the community's religious 
schools. In the short time that they have resided in our 
community, the impact they have had is immeasurable. They serve 
as positive role models for our children by teaching them about 
the type of people we as a community want our children to 
become. They have also become integral members of the 
community, opening their homes and giving of themselves in 
every facet of communal life.
    The Jewish communities in Chicago, Atlanta, Boca Raton, 
Florida, Los Angeles, and Kansas City, where this program has 
been duplicated, have also benefitted in similar manners. All 
of these communities have received these benefits based on the 
current law. Should this law expire, the contributions of these 
dedicated members of our communities will no longer be 
accessible. Not only will all communities be poorer for the 
loss, but those who directly benefit from their services will 
ultimately fall through the cracks.
    Unfortunately, the law does not yet permanently recognize 
the inherent value of religious workers. All of us here today 
are present to testify of the great need and value in allowing 
religious workers to come to our communities. Making this Act 
permanent will bring only selfless men and women to this 
country, men and women who will contribute to this Nation's 
well-being and further its greatness.
     Mr. Chairman, members of this subcommittee, I ask you to 
continue in your role as advocates for this worthy cause. 
Please act quickly to make the Mother Teresa Religious Workers 
Act permanent so that we may return to our communities, assured 
of being able to provide for the general health and welfare of 
our constituents.
    Thank you.
    Senator Abraham. Rabbi Weil, thank you very much. We 
appreciate you being here today and for your statement. It is 
very powerful.
    [The prepared statement of Rabbi Weil follows:]

                     Testimony of Rabbi Steven Weil

    Mr. Chairman, honored Senators, thank you for the honor and 
privilege of appearing before the members of this subcommittee today. 
Mr. Chairman, I have been a resident of the State of Michigan for the 
past six years. In that time, my sense of pride and gratitude for the 
strong leadership and keen vision you have provided our local 
communities has become increasingly profound. Additionally, I would 
like to take the opportunity to commend you and the other members of 
this subcommittee for the strides you have taken to preserve this 
country's legal immigration system. Your hard work in the area of 
immigration, refugees, asylum and naturalization is marked by courage, 
sensitivity, common sense, and, most importantly, with respect and 
dignity for all people who arrive at the shores of this country.
    My name is Steven Weil. I serve as a congregational and communal 
Rabbi in metropolitan Detroit. I am a member of the executive committee 
of Detroit's Council of Orthodox Rabbis and I am also a member of the 
Rabbinical Council of America and the Orthodox Union. The two latter 
groups are umbrella organizations that provide support and services for 
the professional and lay leadership of the American Jewish community.
    More important than each of those positions, however, is my 
distinction as a first generation American. I am the son of a German-
Jewish immigrant. Unlike most of my paternal relatives who were herded 
into cattle cars and sent to their tragic deaths in the concentration 
camps at Auschwitz and Belzec, my father and grandparents were 
fortunate enough to find refuge in the United States. They, along with 
many other refugees, were given the gift of life and the opportunity to 
rebuild their lives. However, the Jewish community in America at that 
time was unable to provide for the staggering financial, social, 
psychological and educational needs of the refugees arriving from 
Europe at the time. Despite it all, and armed with nothing but their 
foresight, faith and work ethic, my grandparents managed to build a 
successful business and a new family. Ever day, I stand in awe of their 
accomplishments and am humbled by the realization that they were an 
exception to the rule. Most people arriving to this country will 
require some form of communal assistance throughout various points in 
their life. With that in mind, religious organizations that care for 
the needs of its members and wish to provide a religious infrastructure 
that can offer those people arriving every day the assistance they so 
desperately need. Many of them arrive from countries that view religion 
differently from our own. We are fortunate to raise our families in an 
environment where religious freedom is not merely an ideal, but a 
constitutional right. It is in such an environment that the greatest 
assistance can be provided.
    Allow me to tell you about the leaders affected by the Mother 
Teresa Religious Workers Act. They are a group of talented, well-
trained and dedicated individuals who leave their homelands and their 
families with the intent to develop our local communities. They are men 
and women, Rabbis, teachers, social workers and youth leaders who are 
intimately involved with the needs of our various neighborhoods. They 
spend their days in schools, synagogues, hospitals and homes for the 
aged. They not only teach and inspire us to become better people, but 
they also guide those who are confused on to the proper path. They are 
by our side in times of need and sorrow, offering both practical and 
emotional support. They serve the community en masse, while at the same 
time never losing sight of individual members of society. It isthrough 
their efforts that our local communities are strengthened, enabling its 
citizens to contribute even more to the greater society in which we 
live.
    In Southfield, Michigan, suburb of Detroit, lives a group of young 
and dynamic Israeli couples. They have moved into the neighborhood and 
are employed in the community's religious schools. In the short time 
that they have resided in our community,the impact they have had is 
immeasurable. They serve as positive role models for our children by 
teaching them about the type of people we as a community want our 
children to become. They have also become integral members of the 
community, opening their homes and giving of themselves in every facet 
of communal life. The Jewish communities in Chicago, Atlanta, Boca 
Raton, Los Angeles and Kansas City, where this program has been 
duplicated, have also benefited in similar manners. All of these 
communities have received these benefits based on the current law. 
Should this law expire, the contributions of these dedicated members of 
our communities will no longer be accessible. Not only will all 
communities be poorer for the loss, but those who directly benefit from 
their services ultimately fall through the cracks.
    Unfortunately, the law does not yet permanently recognize the 
inherent value of religious workers. All of us here today are present 
to testify of the great need and value in allowing religious workers to 
come to our communities. Making this Act permanent will bring only 
selfless men and women to this country. Men and women who will 
contribute to this nation's well being and further its greatness.
    Mr. Chairman, members of this subcommittee, I ask you to continue 
in your role as advocates for this worthy cause. Please act quickly to 
make the Mother Teresa Religious Workers Act permanent so that we may 
return to our communities, assured of being able to provide for the 
general health and welfare of our constituents.
    Thank you.

    Senator Abraham. We will now turn to you, Elder Hardy. 
Thank you also for participating today. We welcome you.

             STATEMENT OF ELDER RALPH W. HARDY, JR.

    Elder Hardy. Thank you, Senator Abraham. I am Elder Ralph 
W. Hardy, Jr., a Member of the Seventy of the Church of Jesus 
Christ of Latter-day Saints, and Chairman of the Church's 
Public Affairs Advisory Committee here in Washington.
    I represent the Church of Jesus Christ of Latter-day 
Saints, sometimes called the Mormon Church, and I have been 
invited to testify on the Mother Teresa Religious Workers Act. 
The church has about 10.7 million members. Over half of our 
membership resides outside of North America.
    Our church is very much in favor of legislation that would 
make permanent the religious worker nonimmigrant visa program. 
As the law stands, the foreign religious worker program will 
expire in September of this year. The bill before you would 
remove the sunset provision. I speak in favor of this bill 
because the religious workers visa program is a vital part of 
the missionary effort of the Church of Jesus Christ of Latter-
day Saints.
    The driving force behind Christian missionary work is the 
spiritual duty to witness of Jesus Christ and his gospel. The 
Church of Jesus Christ of Latter-day Saints takes that charge 
very seriously. Today, there are over 60,000 full-time 
missionaries from our church in over 160 countries around the 
world. While the majority of missionaries are from the United 
States, almost 15,000 missionaries are citizens of other 
countries who are assigned by the president of our church to 
serve in any one of those 160 countries, including the United 
States.
    Missionaries serve for a maximum of 24 months, which means 
that each year about 35,000 missionaries leave or return from a 
mission. For example, my own two young sons recently returned 
from their missions. One went to Malaysia, Singapore and Sri 
Lanka, and the other spent 2 years among the Hispanic people in 
Orange County, CA. Between 1961 and 1962, I served a mission in 
Scotland. In my own congregation of the church in suburban 
Maryland, we have a young missionary serving from Singapore.
    Latter-day Saint missionaries acknowledge two restraints on 
their mandate to be a missionary. The first restraint is the 
moral agency of all persons with whom they come in contact to 
choose their own beliefs for themselves. The second restraint 
is obedience to the law, whose observance is a fundamental 
tenet of our faith. As stated in our 12th Article of Faith, 
``We believe . . . in obeying, honoring, and sustaining the 
law.''
    My testimony today will discuss the importance of the 
religious worker non-immigrant visa program to the missionary 
effort of the Church of Jesus Christ of Latter-day Saints. I 
will summarize the use of the religious worker non-immigrant 
visa program by the church, the advantages to the individual 
missionaries and to the church of having the religious worker 
non-immigrant visas available, and the careful measures which 
the church takes to ensure strict compliance with the rules 
governing non-immigrants' behavior and departure. I will also 
comment on possible arguments that could be raised about abuse 
and misuse of the religious worker non-immigrant visa program. 
In sum, we seek your support for this legislation which would 
make the religious worker non-immigrant visa program permanent.
    A significant minority of the church's 60,000 missionaries 
are citizens of other countries. These young missionaries from 
outside the United States can be assigned by the church's 
leadership to stay in their home country or to serve in any one 
of the other 160 countries where the church operates, including 
the United States. We have sent missionaries from Australia to 
serve in Taiwan, and missionaries from Japan to serve in 
Ukraine. Thus, any prospective missionary for the church can be 
sent almost anywhere in the world to serve for up to 24 months.
    Since 1960, prior to the religious worker non-immigrant 
visa program, the Church of Jesus Christ of Latter-day Saints 
has had a program for foreign missionaries to serve in the 
United States, and we have had young missionaries from almost 
every country in the world perform their missionary service in 
this country.
    Of course, we also send our missionaries from the United 
States to those countries. The governments of those countries 
have been very generous in accommodating and granting visas to 
our missionaries. Since its establishment 10 years ago, the 
religious worker non-immigrant visa program has helped our 
church and the Latter-day Saint people to reciprocate by 
inviting citizens of these foreign countries to perform their 
missionary service in the United States. Thus, we encourage the 
Congress to be as accommodating to the citizens of other 
countries by passing this bill.
    Being able to bring qualified members of the Church of 
Jesus Christ of Latter-day Saints to the United States to serve 
as missionaries for 18 to 24 months results in many advantages 
not only to the individual missionaries but to our worldwide 
church as an institution, as well as to our society.
    Many of these young missionaries are from countries in 
which the Church of Jesus Christ of Latter-day Saints has been 
established for less than a generation. The missionaries are 
able to see how our church, with its volunteer lay leadership, 
operates in the United States, and they return to their home 
countries with this institutional knowledge, which in turns 
strengthens the church and its lay leadership infrastructure in 
those countries.
    Young missionaries on religious worker non-immigrant visas 
generally have to learn English. Not only do they become 
conversationally fluent during their 2 years in the United 
States, but they often teach and hold leadership positions in 
their capacity as missionaries, which further improves their 
new language skills. Further, the missionaries have the 
opportunity to develop leadership skills by working with 
missionaries from all over the world. Often, this exposure to a 
new culture opens up educational opportunities that they 
otherwise would not have.
    The Church of Jesus Christ of Latter-day Saints goes to 
great lengths to ensure strict compliance with the regimen 
imposed by the church, as well as the rules and regulations of 
the religious worker nonimmigrant visa program. For example, no 
missionaries sell anything, not even religious items, nor are 
they allowed to solicit or accept donations for themselves or 
for the church. Missionaries are not permitted to date, marry, 
or to work at any kind of employment. Rather, they are engaged 
in full-time, unpaid community service or religious teaching 
while serving on their missions. These rules apply to all of 
our missionaries worldwide, not just the missionaries serving 
in the United States under the religious worker non-
immigrantvisa program.
    All of our young missionaries in the 333 missions of the 
church are supervised carefully by a distinguished lay leader 
of the Church of Jesus Christ of Latter-day Saints, known as a 
mission president. In addition, all missionaries are assigned a 
companion, and the two perform their religious and community 
service together. Again, it is the policy of the Church of 
Jesus Christ of Latter-day Saints that all of these young 
missionaries serving in the United States under the religious 
worker nonimmigrant visa program return to their home countries 
promptly after their 24-month service as a missionary.
    When a missionary completes his or her 2-year mission, the 
church purchases for the missionary a one-way plane ticket 
home, and the mission president sees the missionary off at the 
airport. In this fashion, the Church of Jesus Christ of Latter-
day Saints takes great care to ensure compliance with the terms 
of the visa and the religious worker nonimmigrant visa program.
    We know that some may be concerned about possible abuses of 
the religious worker nonimmigrant visa program. For example, 
there may be questions as to whether religious worker 
nonimmigrant visas are abused by applicants, whether sponsoring 
organizations make false statements about the length of time 
that the applicant was a member of the religious organization 
and the nature of the work to be done, whether some religious 
worker nonimmigrant visa applicants intend to do very little 
religious work or stay past the date of expiration.
    Please understand that the Church of Jesus Christ of 
Latter-day Saints makes every effort to comply with both the 
spirit and the letter of the law. Latter-day Saint 
missionaries, as well as religious workers of many other 
denominations, do not abuse the religious worker non-immigrant 
visa program. Much good is done by religious workers in this 
country on non-immigrant visas.
    Another possible concern is that religious workers will not 
be able to pay for medical care or living expenses, leaving any 
charges they may incur to be written off by the hospital or the 
landlord. Here again, the Church of Jesus Christ of Latter-day 
Saints pays directly for medical insurance for all missionaries 
in the United States on religious worker nonimmigrant visas. 
These missionaries are supported financially from worldwide 
contributions to the church's missionary program. As stated 
before, a mission president is assigned to each area and is 
specifically charged with supervising the missionaries. The 
mission president's staff makes sure that the rent is paid and 
that a living allowance which comes from member donations is 
distributed monthly.
    As a strict matter of policy, A, our missionaries do not 
accept donations beyond an invitation to dinner. And, B, our 
missionaries on religious worker nonimmigrant visas fulfill 
their financial obligations without asking anyone outside of 
our own faith for assistance.
    The United States of America is a nation of diverse 
religions that protects freedom of religion. The religious 
worker nonimmigrant visa program allows those of different 
nations to witness firsthand the operation of religious freedom 
in this country. We have welcomed those of different countries 
and benefitted by our association with them. The opportunities 
afforded to the Church of Jesus Christ of Latter-day Saints and 
to our missionaries by use of the religious worker nonimmigrant 
visa program has strengthened international relationships and 
provided education and experience in a setting not otherwise 
available.
    When the religious worker nonimmigrant visa program was 
first introduced 10 years ago, the 3-year renewable period was 
added because this visa was experimental. The religious worker 
nonimmigrant visa program has proved to be very successful. No 
other nonimmigrant visa has to be renewed every 3 years, 
wasting time and resources that could be spent elsewhere. The 
time has come to make the religious worker nonimmigrant visa 
program a permanent part of the law.
    Thank you very much.
    [The prepared statement of Elder Hardy follows:]

            Prepared Statement of Elder Ralph W. Hardy, Jr.

    I am Elder Ralph W. Hardy, Jr., a Member of the Seventy of The 
Church of Jesus Christ of Later-day Saints and Chairman of the Church's 
Washington Public Affairs Advisory Committee. I represent The Church of 
Jesus Christ of Latter-day Saints, sometimes called the Mormon Church, 
and I have been invited to testify on the Mother Teresa Religious 
Workers Act. The Church has 10.7 million members. Over half of our 
membership resides outside of North America.
    Our Church is very much in favor of legislation that would make 
permanent the religious worker non-immigrant visa program. As the law 
stands, the foreign religious worker program will expire in September 
of this year. The bill before you would remove the sunset provision. I 
speak in favor of this bill because the religious worker visa program 
is a vital part of the missionary effort of The Church of Jesus Christ 
of Latter-day Saints.
    The driving force behind Christian missionary work is the spiritual 
duty to witness of Jesus Christ and his gospel. The Church of Jesus 
Christ of Latter-day Saints takes that charge very seriously. Today 
there are over 60,000 full-time missionaries from our Church in over 
160 countries around the world. While the majority of missionaries are 
from the United States, almost 15,000 missionaries are citizens of 
other countries who are assigned by the President of our Church to 
serve in any of those 160 countries, including the United States. 
Missionaries serve for a maximum of 24 months, which means that each 
year about 35,000 missionaries either leave for or return from a 
mission. For example, my own two young sons recently returned from 
their missions: one went to Malaysia, Singapore and Sri Lanka; and the 
other spent two years among the Hispanic people in Orange County, 
California. Between 1961 and 1962 I served a mission in Scotland. In my 
own congregation of the Church in suburban Maryland, we have a young 
missionary serving from Singapore.
    Later-day Saint missionaries acknowledge two restraints on their 
mandate to be a missionary. The first restraint is the moral agency of 
all people with whom they come in contact to choose their own beliefs 
for themselves. The second restraint is obedience to the law, whose 
observance is a fundamental tenet of our faith. As stated in our 12th 
Article of Faith, ``We believe . . . in obeying, honoring, and 
sustaining the law.''
    My testimony today will discuss the importance of the religious 
worker non-immigrant visa program to the missionary effort of The 
Church of Jesus Christ of Latter-day Saints. I will summarize the use 
of the religious worker non-immigration visa program by the Church, the 
advantages to the individual missionaries and to the Church of having 
the religious worker non-immigrant visas available, and the careful 
measures the Church takes to ensure strict compliance with the rules 
governing non-immigrants' behavior and departure. I will also comment 
on possible arguments that could be raised about abuse and mis-use of 
the religious worker non-immigrant visa program. In sum, we seek your 
support for this legislation which would make the religious worker non-
immigrant visa program permanent.

                        1. USE OF THE R-1 VISAS

    A significant minority of the Church's 60,000 missionaries are 
citizens of other countries. These young missionaries from outside the 
United States can be assigned by the Church's leadership to stay in 
their home country, or to serve in any of the other 160 countries where 
the Church operates, including the United States. We have sent 
missionaries from Australia to serve in Taiwan, and missionaries from 
Japan to serve in Ukraine. Thus, any prospective missionary for the 
Church can be sent almost anywhere in the world to serve for up to 24 
months. Since 1960--prior to the religious worker non-immigrant visa 
program--The Church of Jesus Christ of Latter-day Saints has had a 
program for foreign missionaries to serve in the United States and we 
have had young missionaries from almost every country in the world 
perform their missionary service in this country. Of course, we also 
send missionaries from the United States to those countries. The 
governments of those countries have been very generous and 
accommodating in granting visas to our missionaries. Since its 
establishment ten years ago, the religious worker non-immigrant visa 
program has helped our Church and the Latter-day Saint people to 
reciprocate by inviting citizens of these foreign countries to perform 
their missionary service in the United States. Thus, we encourage the 
Congress to be as accommodating to the citizens of other countries by 
passing this bill.

                  2. ADVANTAGES OF USING THE R-1 VISAS

    Being able to bring qualified members of The Church of Jesus Christ 
of Latter-day Saints to the United States to serve as missionaries for 
18 to 24 months results in many advantages--not only to the individual 
missionaries but to our worldwide Church as an institution. Many of 
these young missionaries are from countries in which the The Church of 
Jesus Christ of Latter-day Saints has been established for less than a 
generation. The missionaries are able to see how our Church, with its 
volunteer lay leadership, operates in the United States and they return 
to their home countries with this institutional knowledge, which in 
turn strengthens the Church and its lay leadership infrastructure in 
these countries.
    Young missionaries on religious worker non-immigrant visas 
generally have to learn English. Not only to do become conversationally 
fluent during their two years in the United States, but they often 
teach and hold leadership positions in their capacity as missionaries, 
which further improves their new language skills. Further, the 
missionaries have the opportunity to develop leadership skills by 
working with missionaries from all over the world. Often, this exposure 
to a new culture opens up educational opportunities that they otherwise 
would not have.

  3. MEASURES TAKEN TO ENSURE STRICT COMPLIANCE WITH VISA REGULATIONS

    The Church of Jesus Christ of Latter-day Saints goes to great 
length to ensure strict compliance with the regimen imposed by the 
Church as well as the rules and regulations of the religious worker 
non-immigrant visa program. For example, no missionaries sell anything, 
not even religious items, nor are they allowed to solicit or accept 
donations for themselves or for the Church. Missionaries are not 
permitted to date, marry or to work at any kind of employment; rather, 
they are engaged in full-time, unpaid community service or religious 
teaching while serving on their missions. These rules apply to all of 
our missionaries worldwide, not just to missionaries serving in the 
United States under the religious worker non-immigrant visa program.
    All of our young missionaries in the 333 missions of the Church are 
supervised carefully by a distinguished lay leader of The Church of 
Jesus Christ of Latter-day Saints known as a Mission President. In 
addition, all missionaries are assigned a companion, and the two 
perform their religious and community service together. Again, it is 
the policy of The Church of Jesus Christ of Latter-day Saints that all 
of these young missionaries serving in the United States under the 
religious worker non-immigrant visa program return to their home 
countries promptly after their 24 month service as a missionary. When 
such a missionary completes his two-year mission, the Church purchases 
the missionary a one-way plane ticket home and the Mission President 
sees the missionary off at the airport. In this fashion, The Church of 
Jesus Christ of Latter-day Saints takes great care to ensure compliance 
with the terms of the visa and the religious worker non-immigrant visa 
program.

                       REPLY TO POSSIBLE CONCERNS

    We know that some may be concerned about possible abuses of the 
religious worker non-immigrant visa program. For example, there may be 
questions as to whether religious worker non-immigrant visas are abused 
by applicants; whether sponsoring organizations make false statements 
about the length of time that the applicant was a member of the 
religious organization and the nature of the work to be done; whether 
some religious worker non-immigrant visa applicants intend to do very 
little religious work, or stay past the date of expiration.
    Please understand that The Church of Jesus Christ of Latter-day 
Saints makes every effort to comply with both the spirit and the letter 
of the law. Latter-day Saint missionaries and religious workers of many 
other denominations do not abuse the religious worker non-immigrant 
visa program. Much good is done by religious workers in this country on 
non-immigrant visas.
    Another possible concern is that religious workers will not be able 
to pay for medical care or living expenses, leaving any charges they 
may incur to be written off by the hospital or landlord. Here again, 
The Church of Jesus Christ of Latter-day Saints pays directly for 
medical insurance for all missionaries in the United States on 
religious worker non-immigrant visas. These missionaries are supported 
financially from worldwide contributions to the Church's missionary 
program. As stated before, a Mission President is assigned to each area 
and is specifically charged with supervising the missionaries. The 
Mission President's staff makes sure that rent is paid and a living 
allowance, which comes from member donations, is distributed monthly. 
As a strict matter of policy (a) our missionaries do not accept 
donations beyond an invitation to dinner, and (b) our missionaries on 
religious worker non-immigrant visas fulfill their financial 
obligations without asking anyone outside of our own faith for 
assistance.

                               CONCLUSION

    The United States of America is a nation of diverse religions that 
protects freedom of religion. The religious worker non-immigrant visa 
program allows those of different nations to witness firsthand the 
operations of religious freedom in the United States of America. We 
have welcomed those of different countries and benefitted by our 
association with them. The opportunities afforded to The Church of 
Jesus Christ of Latter-day Saints and to our missionaries by use of the 
religious worker non-immigrant visa program have strengthened 
international relationships and provided education and experience in a 
setting not otherwise available.
    When the religious worker non-immigrant visa program was first 
introduced ten years ago, the three year renewal period was added 
because this visa was experimental. The religious worker non-immigrant 
visa program has proved to be very successful. No other non-immigrant 
visa has to be renewed every three years, wasting time and resources 
that could be spent elsewhere. The time has come to make the religious 
worker non-immigrant visa program a permanent part of the law.

    Senator Abraham. I want to thank all of our panelists today 
for your testimony and for, I think, making a very compelling 
case. I just have a couple of questions, and given some of the 
sentiments expressed, some of these points have even been 
touched on.
    I just wanted to perhaps make sure we had clear the number 
of visas that your organizations estimate are used per year, if 
you know that. And if you don't, if we could find that out and 
provide it later to the committee, it could be included in the 
record.
    Cardinal Maida, if you have an estimate on that?
    Cardinal Maida. It is about 1,000 to 1,200, according to 
our best count.
    Senator Abraham. Rabbi Weil, as I said, we will keep the 
record open.
    The way the process works, just for those of you who are 
new as witnesses, we also will leave the record open for other 
members, if anyone wants to submit questions, for a couple of 
days. They will have that chance. So we will submit this in 
writing, as well, for your purposes.
    Elder Hardy.
    Elder Hardy. Right now, our church has slightly over 2,000 
at this present time in the country.
    Senator Abraham. One of the other questions I think that we 
need to get on the record here is just an estimation or an 
analysis of the impact that would happen on your organization 
if we weren't to move forward to reauthorize and extend these 
visas into the future.
    What would be the impact of that?
    Elder Hardy. Well, I think if it was not extended, I think 
the effect on our organization is really that our church, as 
established overseas and where, as I indicated, it has been 
established for less than a generation, would suffer because of 
the training that the young men and women who come here on 
these visas are able to receive in this country, and to observe 
and to work with the lay leadership here and in building up the 
church there. As our church everywhere is governed by its local 
people, they would suffer from not having this opportunity of 
learning and leadership here.
    Senator Abraham. Rabbi Weil.
    Rabbi Weil. The ramifications would be catastrophic 
specifically in the area of youth work and in primary and 
secondary education. Close to a third of the educators come via 
this Act, via the Religious Workers Act, and we just have a 
shortage in the United States of proper educators who have the 
pedagogic skills and who are dynamic, and that is why we have 
this opportunity to work with the kids both in school formally 
and after school. Just to be repetitive, terribly catastrophic.
    Senator Abraham. Cardinal Maida.
    Cardinal Maida. In our church, we are involved in serving 
our immigrants as they come into a new culture and a new 
country, and we believe that their faith needs to be 
strengthened and within the culture here they need to be 
sustained. I think it would be a terrible, terrible mistake if 
this were not extended or made permanent because it is the poor 
people that would suffer, the people most in need, most looking 
for direction.
    If we are not there to help them and we don't have the 
resources to help these poor people, I just think it is shame 
on America. I just think it would be very self-serving and I 
just think that the spirit of America is not that kind of a 
spirit. I think we need to have open hearts and open arms and 
welcome the people, and then provide whatever resources we can 
to sustain them and help them. It has worked in the past. We 
are an immigrant country, we are an immigrant church, and we 
need to be there for our people.
    Senator Abraham. I agree. You know, I have to say it is 
interesting. I was trying as we have gone through this hearing 
today and listened to each of you to sort of turn back the 
clock in my own mind to our last reauthorization or extension 
of this program, remembering at the time as part of the 
hearing, but then later as part of the negotiations to try to 
get an extension to occur as opposed to our unsuccessful 
efforts to make the program permanent, hearing the array of 
concerns and criticisms, some of which Elder Hardy in 
particular addressed here.
    I have to make the statement that I am struck by the fact 
that here we are several years later and I have neither seen 
nor have I heard any evidence of the kinds of claims that had 
been made as the basis for not making the program permanent 
back then. So here we are again, I hope, for the last time, 
much as we appreciate each of you being participants.
    The one thing that does sort of unfortunately come into 
play in this debate of making any of these categories either 
permanent or broader, and so on, is a kind of broader issue 
that we have been hearing lately in the immigration debates 
that we have had before this committee and in Washington, of 
course, and that is the argument or contention that somehow 
immigrants, whether they are temporarily here or permanently 
here, are weakening either our culture or our economy, somehow 
taking away jobs, et cetera, and in some way or another a net 
negative to America.
    I just was wondering if each of you might just from the 
perspective of your own institutions comment on this topic, 
specifically whether immigrants and their families are hurting 
or helping the spiritual, the moral, the cultural, or the 
economic life of your churches, your communities, or America.
    Rabbi Weil, maybe we will start with you.
    Rabbi Weil. I would disagree with that one hundred percent. 
If you look at the immigrants in the Jewish community, what 
they have done is they have given flavor and life to the 
community. They have carried their weight, they have been 
contributing members to society, and it has not been by taking 
other people's jobs away in no way, shape or form. I just have 
to disagree with those attacks.
    Senator Abraham. Elder Hardy.
    Elder Hardy. Well, as has been mentioned by my brethren, we 
are a nation of immigrants and the opportunity to have these 
non-immigrant religious workers in this country increases the 
diversity, the richness of our society, and the fabric of our 
society. Within our own church, to have these young people here 
from other countries certainly contributes to the richness of 
our own worship.
    And, in addition, with regard to the issues of employment, 
as I indicated in my statement, the young workers that come 
here are not employed, are not taking any jobs from anyone in 
any way, shape, or form, and are not in any employed by anybody 
and are supported otherwise by the church.
    Senator Abraham. Cardinal Maida.
    Cardinal Maida. I would like to perhaps focus on myown 
personal situation. My father came from Poland, an immigrant, at 16 
years old. Three sons were born of the marriage. I am a Cardinal in the 
Roman Catholic Church and serve the church locally in Detroit and 
nationally in the United States helping the Holy Father. So I think I 
have opportunities here to make a great contribution not only to our 
local community but to society and to our culture.
    My brother is a priest, and he serves well in Pittsburgh 
and has a large congregation and has a great spiritual 
influence upon the people and the community. And my third 
brother is educated and a big businessman in Pittsburgh and 
doing wonderful work and has a marvelous family.
    I just think that every immigrant has those opportunities 
in the United States. That makes our land so special because we 
have recognized, according to our Constitution, that we have 
been all endowed with our human dignity by God with inalienable 
rights, and that every human being needs to be respected and 
given the opportunity. And we need to respect the immigrants 
and welcome them into our society, into our fabric, and when we 
do that we all become richer for it.
    Senator Abraham. Well said.
    As I said at the outset, I don't want to keep people here 
longer than had been promised, and so I was going to refrain 
from the lengthy opening statement that I would have otherwise 
given. But I do want to conclude actually by drawing from the 
letter which the Cardinal entered into the record that I 
received just a couple of years ago from Mother Teresa.
    She wrote me at that time and said, ``Dear Senator Abraham, 
I am writing to ask you to help us in solving a very urgent 
problem. My Sisters in New York have told me that the law which 
allows the Sisters to apply for permanent residence in the 
United States expires on September 30, 1997. Please, will you 
do what you can to have that law extended so that all religious 
workers will continue to have the opportunity to be permanent 
residents and serve the people of your great country. It means 
so much to our people to have Sisters who are understand them 
and their culture. It takes a long time for a Sister to 
understand the people and a culture. So now our Society wants 
to keep our Sisters in their mission countries on a more long-
term basis. Please help us and our poor by extending this law. 
I am praying for you and the people of Michigan. My Sisters 
serve the poor in Detroit, where we have a soup kitchen and 
night shelter for women. Let us all thank God for this chance 
to serve His poor.'' Signed, ``Mother Teresa.''
    I received this letter, as Cardinal Maida indicated, only a 
few weeks ago before Mother Teresa died, and in honor of her 
great deeds for humanity, I hope that this year we can finally 
extend the religious workers provision of the Immigration and 
Naturalization Act permanently. I think this hearing is an 
important step in that process.
    So I really look forward to working with my colleagues here 
on the subcommittee and the full Judiciary Committee, as well 
as the full Senate and ultimately the rest of Congress, to try 
to get this job done once and for all. We have a lot of, I 
think, issues with respect to immigration, challenges that we 
confront. We have problems that we have to deal with. This 
subcommittee unfortunately often hears from witnesses who talk 
about immigration problems, whether it is illegal immigration 
or difficulties that have transpired with respect to 
naturalizing citizens.
    This is an area where we don't have problems. It is an area 
which enriches the United States. It is a set of visas that 
make a difference to the spiritual life and the cultural life 
of our communities and that renews our religions who take 
advantage of it. And inasmuch as there are no problems here, 
other than the simple problem that the calendar runs out every 
so often to make this program non-existent requiring us to have 
to renew it, it just seems to me that for once we ought to take 
the sort of action that is both decisive and appropriate, and 
in this case it is to make the program permanent so that the 
problem of having to renew this program is no longer a problem.
    We can do that. I look forward to working to achieve it, 
and I want to commit to our witnesses today and those of you 
who have taken the time to be with us that we are going to do 
our very best to not only extend the program but to make it 
permanent. I want to thank everybody for being here, and at 
this point we will adjourn the hearing.
    Thank you all.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2779A.001
    
    [GRAPHIC] [TIFF OMITTED] T2779A.002
    

</pre></body></html>
